OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EL
SALVADOR’S ECONOMIC
GROWTH PROGRAM

AUDIT REPORT NO.1-519-07-006-P
MARCH 6, 2007




SAN SALVADOR, EL SALVADOR
                       Office of Inspector General




       March 6, 2007


       MEMORANDUM

       TO:                USAID/El Salvador Director, Deborah Kennedy-Iraheta

       FROM:              Regional Inspector General/San Salvador, Timothy E. Cox /s/

       SUBJECT:           Audit of USAID/El Salvador’s Economic Growth Program (Report No.
                          1-519-07-006-P)


       This memorandum transmits our final report on the subject audit. We have carefully
       considered your comments on the draft report and have included your comments in their
       entirety in Appendix II of this report.

       This report contains 12 recommendations intended to improve the implementation of
       USAID’s economic growth activities in El Salvador. Based on your comments and the
       documentation provided, we consider that final action has been taken on
       Recommendation No. 12, that management decisions have been reached on
       Recommendation Nos. 1, 2, 3, 5, 6, 7, 8, 9, and 10. Management decisions for
       Recommendation Nos. 4 and 11 can be recorded once we and the Mission have agreed
       on a firm plan of action with timeframes for implementing the recommendations.
       Determination of final action for Recommendation Nos. 1, 2, 3, 5, 6, 7, 8, 9, and 10 will
       be made by the Audit Performance and Compliance Division (M/CFO/APC) upon
       completion of the Mission’s planned corrective actions.

       I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit 3110; APO, AA 34023
Tel (503) 2228-5457 - Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objectives ................................................................................................................ 7

Audit Findings ................................................................................................................. 8

     Did USAID/El Salvador’s economic growth activities achieve planned results? ........ 8

          Performance Targets Were Too Conservative.................................................... 10

          An Economic Analysis Would Have Been Useful................................................ 12

          The Tax Policy and Administration Program Can Be Enhanced......................... 14

          A Portion of the Export Promotion Activity Was Delayed .................................... 17

     Did USAID/El Salvador’s reporting on its economic growth activities provide
     stakeholders with complete and accurate information on the progress of the
     activities and the results achieved? ......................................................................... 19

          Mission Reporting Lacked Needed Context ........................................................ 19

          Periodic Reviews of Reported Data Have Not Been Performed ......................... 23

          Site Visits Are Not Documented .......................................................................... 25

     Other Matters ............................................................................................................ 26

          Obligations to the Economic Growth SOAG Did
          Not Comply with Forward Funding Requirements............................................... 26

          Cost of Equipment for Superintendency
          of Competition Was Not Justified ........................................................................ 28

Appendix I – Scope and Methodology ........................................................................ 31

Appendix II – Management Comments ....................................................................... 33
SUMMARY OF RESULTS
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/El Salvador’s economic growth activities achieve planned results?

•   Did USAID/El Salvador’s reporting on its economic growth activities provide
    stakeholders with complete and accurate information on the progress of the activities
    and the results achieved?

With respect to the first question, USAID/El Salvador’s economic growth activities
achieved planned results in FY 2005. For FY 2006, the Mission’s implementing partners
met 14 of 16 targets for which results were available. (See page 8.) Despite these
accomplishments, we noted four areas where opportunities existed to improve
performance management or program operations. Specifically, several performance
targets need to be revised so that they will stay relevant, the economic growth portfolio
should be reviewed to better ensure that all of the activities being financed are cost
effective, the impact of the tax policy and administration activity can be enhanced, and a
manual for issuing awards under a contract should be developed and approved so that
USAID can fund additional small and medium enterprises. (See pages 10 to 18.)

With respect to the second question above, USAID/El Salvador’s reporting on its
economic growth activities did not provide stakeholders with complete and accurate
information on the progress of the activities and the results achieved. Information
presented in the Annual Report and the Congressional Budget Justification was
presented without contextual information that a reader would need to interpret the
information correctly. In addition, more needs to be done to verify the quality of data
reported by USAID’s partners, and site visits were not documented. (See pages 19 to
26.)

Two other matters came to our attention during the course of the audit that require
corrective action by USAID/El Salvador. Specifically, obligations to the economic growth
SOAG did not comply with forward funding requirements and the cost of equipment for
the Superintendency of Competition was not justified. (See pages 26 to 30.)

This report contains the following recommendations for USAID/El Salvador:

•   Revise performance targets for the economic growth program as required by
    ADS 203.3.4.5. (See page 11.)

•   Review its economic growth portfolio, using readily available information on
    economic costs and benefits, and take appropriate action to reduce costs or increase
    cost efficiency for those activities that it concludes are not cost effective. (See page
    14.)

•   Develop and make available to Government of El Salvador tax authorities
    information on tax incidence and compliance rates by taxpayer income level.
    (See page 16.)



                                                                                          1
•   Obtain evidence that the Government of El Salvador has implemented a program
    to reduce tax evasion through transfer pricing schemes. (See page 16.)

•   Build on its tax administration assistance by developing and implementing a plan
    to engage the Government of El Salvador at the highest level in a dialogue on its
    tax structure, possibly including the need for a land or property tax, and drawing
    on the analytical capabilities of its current contractor or other sources of expertise
    as necessary. (See page 16.)

•   Require Nathan Associates to submit an adequate operating manual to the
    Contracting Office for approval as soon as possible. (See page 18.)

•   Require Aid to Artisans to periodically validate the formulas used to estimate the
    number of new jobs created, or obtain information on the actual number of new
    jobs created directly from assisted firms. (See page 23.)

•   Implement a system to disclose the use of estimates and present sufficient
    contextual information to facilitate understanding of its reporting on the economic
    growth program. (See page 23.)

•   Require Cognizant Technical Officers to periodically sample and review their
    implementing partners’ data for completeness, accuracy, and consistency. (See
    page 24.)

•   Require written site visit reports. (See page 26.)

•   Reprogram $11 million to program areas where the funds can be used within the
    current fiscal year. (See page 28.)

•   Reprogram for higher priority uses the $119,355 budgeted for equipment for the
    Superintendency of Competition but not needed as well as the $26,667 that was
    spent for video conferencing equipment that is not justified. (See page 29.)

For the most part, USAID/El Salvador concurred with the recommendations included in
this report and has agreed to take corrective action. Our evaluation of management
comments is provided after each recommendation in the report. USAID/El Salvador’s
comments in their entirety are included in Appendix II.




                                                                                             2
BACKGROUND
With the exception of a brief period of rapid growth in the early 1990s, El Salvador’s
economic performance since 1979 has been poor. Figure 1 below, which covers a
period of 26 years, shows that El Salvador’s gross domestic product (GDP) fell 28
percent at the outset of the civil war that began in 1979. GDP recovered rapidly during
the early 1990s, following the end of the war and the adoption of several major economic
reforms, including tariff reductions and tax reform. However, this period of rapid growth
was brief, and in 1996 El Salvador entered a period of slow growth that has persisted up
to the present time. During the five-year period beginning in 2000, real per capita GDP
increased a total of just 1.7 percent.

While economies in the Latin America and Caribbean (LAC) region as a whole have
grown slowly since 1979, El Salvador’s per capita GDP growth has under performed the
rest of the region throughout this period, with the notable exception of the period from
1989 to 1995. In fact, El Salvador’s real per capita GDP is only now approaching the
levels that were attained before the start of the civil war a quarter of a century ago.

Figure1: Per Capita GDP, Purchasing Power Parity Method, in Constant 2000 Dollars for
El Salvador and 20 LAC Countries with Populations over 3 Million.
  $3,000

                      El Salvador
                      Average of 20 LAC Countries

  $2,500




  $2,000




  $1,500




  $1,000




   $500




     $0
        79

        80

        81

        82

        83

        84

        85

        86

        87

        88

        89

        90

        91

        92

        93

        94

        95

        96

        97

        98

        99

        00

        01

        02

        03

        04

        05
      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      19

      20

      20

      20

      20

      20

      20




       Source: World Bank, World Development Indicators Online




Turning to the issue of jobs, employment in the formal sector in El Salvador grew rapidly
from the end of the war in 1991 through 1995. Since 1995, employment has grown
more slowly, just keeping pace with the growth in the population of working age.
(Interestingly, from the end of the war until 1995, growth in formal employment was
evenly divided between jobs held by men and women; since 1995, 78 percent of the
growth has been in jobs held by women.)




                                                                                       3
Figure 2: Formal Employment (Employees Enrolled in Social Security), 1983 – 2005 and
Estimated Working Age Population 1992 – 2005

                        700,000                                                                                                                         4,500,000


                                                   Total employees (left                                                                                4,000,000
                        600,000                    scale)
                                                   Male employees (left                                                                                 3,500,000

                        500,000
                                                   scale)
                                                   Female employees (left                                                                               3,000,000




                                                                                                                                                                    Working age population
                                                   scale)
    Formal employment




                        400,000
                                                   Midyear working age                                                                                  2,500,000

                                                   population (right scale)
                                                                                                                                                        2,000,000
                        300,000


                                                                                                                                                        1,500,000
                        200,000

                                                                                                                                                        1,000,000

                        100,000
                                                                                                                                                        500,000


                            -                                                                                                                           -
                                   1983 1984 1985 1986 1987 1988 1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003 2004 2005

                                Sources: Salvadoran Social Security Institute (ISSS) and U.S. Census Bureau International Data Base.



In 2004, USAID/El Salvador estimated that about 31 percent of employed workers were
in the formal sector while 19 percent were employed in agriculture and 50 percent were
self employed or worked in the informal sector.         The Mission estimated that
underemployment in agriculture and the informal sector was roughly 30 percent;
however, reliable employment and unemployment statistics for these sectors do not
exist.

Among the most important reasons for El Salvador’s weak economic performance are
the following:

•             From approximately 1979 to 1991, El Salvador’s civil war severely disrupted the
              economy and destroyed existing political, social, and economic structures.

•             Frequent natural disasters (e.g., earthquakes in 1985 and 2001, flooding from
              Hurricane Mitch in 1998 and Tropical Storm Stan in 2005, and a volcanic eruption in
              2005) have disrupted economic activity and destroyed valuable infrastructure.

•             Relatively easy access to the United States, resulting in high levels of legal and
              illegal immigration, is thought to attract many of the most ambitious and determined
              members of the labor force, denying the Salvadoran economy an important source of
              growth. Remittances sent back home help to increase consumption in El Salvador
              but probably also reduce incentives to work.

•             An extremely serious crime problem has increased the cost of doing business in El
              Salvador to the point that an estimated 11 percent of GDP now goes to pay for
              security services. Crime is a critical barrier to increased investment and economic
              growth.

•             External shocks adversely affected economic growth during the first part of the
              current decade. One researcher has estimated that these shocks, dominated by the


                                                                                                                                                                                             4
                      effects of the 2001 recession in the United States and the subsequent slow recovery,
                      may have reduced GDP growth in El Salvador roughly 2 percentage points in both
                      2001 and 2002.1

•                     Gross domestic savings fell throughout the war period, partially recovered through
                      1998, and have steadily declined since then, finally becoming negative in 2004 and
                      2005. Gross capital formation, a measure of investment, fell during the early years
                      of the civil war, increased from 1985 to 1995, and has declined fairly steadily since
                      1995 to its current level of about 15 percent of GDP. These trends are illustrated in
                      Figure 3.

                      Figure 3: Gross Domestic Savings and Gross Capital Formation, 1979 – 2005
                      25
                                         Gross capital formation (% of GDP)
                                         Gross domestic savings (% of GDP)

                      20




                      15
     Percent of GDP




                      10




                       5




                       0
                        79

                        80

                        81

                        82

                        83

                        84

                        85

                        86

                        87

                        88

                        89

                        90

                        91

                        92

                        93

                        94

                        95

                        96

                        97

                        98

                        99

                        00

                        01

                        02

                        03

                        04

                        05
                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      19

                      20

                      20

                      20

                      20

                      20

                      20
                      -5
                           Source: World Bank, World Development Indicators Online.



•                     Declining productivity has also adversely affected economic growth. Total factor
                      productivity fell an estimated 0.8 percent annually from 1980 through 2004 and labor
                      productivity in 2002 was only about two-thirds of the peak level attained just before
                      the outbreak of the civil war.2 These trends are thought to reflect low spending on
                      research and development, the absence of linkages between the education and
                      business sectors, and deficiencies in the ability of firm management to innovate,
                      implement improved business processes, and take advantage of the opportunities
                      offered by technological advances and the opening of new markets. Low rates of
                      investment, discussed above, may have also contributed to declines in productivity,
                      to the degree that investment has not been sufficient to take advantage of technical
                      innovations. Finally, it is possible that the evolution of El Salvador’s economy from
                      an agriculture-based economy to a service-based economy has not provided the


1
    Edwards, Sebastian, “The Slowdown of Economic Growth in El Salvador: An Exploratory
     Analysis,” unpublished draft monograph, 2003. The model developed by Edwards produced
     midpoint estimates of -2.4 percent in 2001 and -1.8 percent in 2002 within ranges of -1.6 to -3.2
     percent and -1.2 to -2.4 percent respectively.
2
    International Monetary Fund, “El Salvador: Selected Issues – Background Notes” (IMF Country
     Report No. 05/270), 2005 and Larrain, Felipe P., “El Salvador: ¿Cómo Volver a Crecer?”
     Interamerican Development Bank, 2003.


                                                                                                         5
      same scope for technological innovation that evolution to a manufacturing economy
      would have provided.

•     After a period of rapid reform in the early 1990s, the pace of reform has slowed.
      Changes to El Salvador’s institutions to strengthen the rule of law, better protect
      property rights, encourage competition, reduce corruption, and ensure government
      transparency and accountability would encourage faster long-term economic growth.

Along with these challenges that have caused El Salvador to consistently under perform
most other LAC countries in terms of economic growth, there are some positive
developments and areas of strength. The labor force in El Salvador, with its strong work
ethic, is a crucial asset, although there are indications that remittances are eroding this
asset. At the macroeconomic level, El Salvador has achieved stable exchange rates
and low inflation. El Salvador’s currency was pegged to the dollar from 1995 through
2000, and on January 1, 2001, the value of the local currency was fixed by law at 8.75
colones per U.S. dollar and the dollar became legal tender.3 Since 1995, El Salvador’s
inflation rate has averaged 4.2 percent, or about one-fifth of the average rate for Latin
America. The Central American Free Trade Agreement (CAFTA) is expected to boost El
Salvador’s growth rate, assuming that the country undertakes the reforms and
complementary investments needed to take advantage of the opportunities provided by
CAFTA. An additional boost will come from the agreement that the Government of El
Salvador recently signed with the Millennium Challenge Corporation that will provide
$461 million in grant funding over the next five years for road construction and other
investments in the Northern part of the country. Finally, the Government has made
progress in reducing the red tape associated with starting a new business in El Salvador,
and the International Finance Corporation currently estimates that 26 days are required
to start a business in El Salvador.

USAID/El Salvador is attempting to address some of the constraints to economic growth
in El Salvador through a strategic objective that began in July 2005 and is scheduled to
end in September 2009. The strategic objective, its planned intermediate results, the
contractors and grantees that are implementing programs under the strategic objective,
and the financial status of the programs are outlined in Table 1 below.

Table 1: Strategic Objective, Intermediate Results, and Contractors and Grantees4
(Financial Information as of September 30, 2006 – Unaudited)

Description                                                               Obligations        Accrued
                                                                          ($ millions)    Expenditures
                                                                                           ($ millions)
Strategic Objective No. 2: Economic Freedom: Open, Diversified,
Expanding Economies
     Intermediate Result No. 1: Laws, Policies, and Regulations that
     Promote Trade and Investment
          Development Alternatives, Inc. – Provide assistance to the                3.3              1.4


3
    It is important to note that, while dollarization of El Salvador’s economy has produced important
     benefits in terms of stability and low inflation, it precludes the use of monetary policy to manage
     the economy. In particular, since El Salvador cannot adjust its exchange rate, at least in the
     short term, any threats to competitiveness must be addressed by increasing productivity,
     something that the country has so far been unable to do.
4
    This table excludes watershed management activities and USAID monitoring and evaluation
     expenses, which were not included in the audit scope.


                                                                                                      6
Description                                                              Obligations        Accrued
                                                                         ($ millions)    Expenditures
                                                                                          ($ millions)
         GOES in tax administration.
         Booz Allen Hamilton – Provide assistance to the GOES                      2.6             0.1
         Superintendency of Competition on enforcement of a new
         competition law, assistance to GOES customs authorities on
         CAFTA implementation, and assistance to the Technical
         Secretariat of the Presidency of El Salvador on reducing the
         cost and time required to register and close private
         businesses.
         Fintrac – Help the Ministry of Agriculture regulate pesticide             0.9             0.8
         use.
         Miscellaneous                                                             0.5             0.5
         Subtotal                                                                  7.3             2.7
    Intermediate Result No. 2: More Competitive, Market-Oriented
    Private Enterprises
         Fintrac – Provide assistance in improved field production                 4.8             2.2
         techniques and processing methods and promote investment
         in rural areas.
         Aid to Artisans – Provide assistance in production and                    1.8             1.1
         marketing of crafts.
         Nathan and Associates – Provide technical assistance to                   7.9             5.8
         strengthen the competitiveness of small and medium
         enterprises.
         Chemonics – Provide assistance to the specialty coffee and                1.2             1.0
         sanitary and phytosanitary standards (SPS) activities
         World Environmental Center – Help 33 Salvadoran businesses                0.6             0.2
         improve energy efficiency.
         Direct USAID/El Salvador grants to 18 Salvadoran entities for             0.7             0.6
         community infrastructure (e.g., roads, bridges, schools, and
         water systems).
         Subtotal                                                                 17.0            11.1
    Intermediate Result No. 3:Broader Access to Financial Markets and
    Services
         Chemonics – Help financial institutions expand lending to                 2.6             0.9
         SMEs.
         Development Alternatives, Inc. – Help strengthen microfinance             1.0             0.8
         institutions.
         Loan guarantee funded under USAID’s Development Credit                    0.3             0.1
         Authority to encourage lending to SMEs.
         Subtotal                                                                  3.9             1.8
Total                                                                             28.2            15.6


AUDIT OBJECTIVES
As part of its fiscal year 2007 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following questions:

•   Did USAID/El Salvador’s economic growth activities achieve planned results?

•   Did USAID/El Salvador’s reporting on its economic growth activities provide
    stakeholders with complete and accurate information on the progress of the activities
    and the results achieved?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                                    7
AUDIT FINDINGS
Did USAID/El Salvador’s economic growth activities achieve
planned results?
USAID/El Salvador’s economic growth activities achieved planned results in FY 2005.
For FY 2006, the Mission’s implementing partners met all but two of its targets for which
results were available. Out of the 19 activity-level indicators listed in its Performance
Management Plan (PMP), performance targets for 14 indicators were met and targets for
2 indicators were not met (final results for one indicator were not available [1a], results
for another indicator could not be compared to its target [3d], and one indicator was not
expected to produce results until FY 2007 [2d]).

Table 2: 19 Economic Growth Activity-Level Indicators and Their Corresponding
Targets and Results for FYs 2005 and 2006

Performance Indicator                Target for     Actual for      Target for      Actual for
                                     FY 2005        FY 2005         FY 2006         FY 2006
1a. Avg # of hours for clearance     Not shown      30              28              Not available
and release of goods in customs
1b. Total tax collection as % of     13.0%          13.2%           13.4%           Est.13.6%*
GDP*
1c. # of people trained for          No result      No result       25              0
CAFTA implementation                 expected       expected
1d. Total # of days to register a    Not shown      40              35              26
new business
2a. Increased annual sales by        $4.2 million   $10.2 million   $19.3 million   $32.4 million
SMEs**
2b. Increased annual exports of      $2.8 million   $9.1 million    $14.9 million   $28.2 million
SMEs**
2c. New jobs created by SMEs**       800            2,621           3,400           3,956
2d. Economic savings on              No result      No result       No result       No result
industries as a result of cleaner    expected       expected        expected        expected
production/energy efficiency
measures
2e. Number of people trained by      675            2,692           3,200           4,805
business development
programs**
2f. Cumulative # of SMEs             485            566             1,235           2,075
assisted to strengthen
competitiveness**
2g. # of enterprises participating   No result      No result       18              14
in a clean production program        expected       expected
2h. # of community identified        Not shown      13              10              10
infrastructure activities
completed through community
participation
3a. # of active new SME              No result      No result       150             446
borrowers                            expected       expected
3b. # of active new loans to         No result      No result       200             1,816
SMEs                                 expected       expected




                                                                                                    8
Performance Indicator             Target for      Actual for      Target for     Actual for
                                  FY 2005         FY 2005         FY 2006        FY 2006
3c. Total value of active new     No result       No result       $1 million     $52.3 million
loans to SMEs                     expected        expected
3d. Delinquency rate of assisted  No result       No result       0.25% less      1.15%
regulated financial institutions  expected        expected        than 2005
3e. # of people trained under     No result       No result       200             269
financial services program        expected        expected
3f. # of active new borrowers of  No result       No result       1,200           3,761
assisted microfinance             expected        expected
institutions
3g. Total # of active new loans    No result      No result       1,320           3,885
by assisted microfinance           expected       expected
institutions
* This indicator actually measures calendar year results, but the 13.6% result is a preliminary
estimate for the period from January through September 2006.
** FY 2005 targets and results for these indicators included the period under the new strategy
from July to September 2005. In addition, the reported number of jobs was based on estimates.

As indicated above, two FY 2006 results were not met. First, the Mission did not train 25
people for Central American Free Trade Agreement implementation because the trade
policy activity started on July 10, 2006, almost four months later than originally planned.
The delay occurred because the process for reviewing and selecting the best proposal
took longer than anticipated. USAID requested clarifications and broader explanations
from some of the contractors who participated in the competition and negotiations with
the selected partner took longer than expected. A USAID official noted that it would be
very easy to train 25 people during 2007. Second, the cleaner production activity did not
assist 18 companies as intended. As of September 30, 2006, it had assisted 14
companies. The strategy was to work with two large companies and their supplying
companies to improve environmental standards and create savings. The activity initially
attracted one large company but experienced difficulty in attracting a second large
company. Subsequent to the end of the fiscal year, two other large companies have
agreed to participate in the activity and meeting this target will not be a problem in the
future. We believe that both activities described above will reach their life of activity
targets and therefore, we are not making a recommendation on these matters.

As can be seen above, the Mission has achieved successes in several program areas
including tax collections, firms made more competitive, and people trained. Examples of
other achievements, beyond the statistics presented above, follow:

•   Laws, Policies and Regulations that Promote Trade and Investment – In addition to
    increasing tax collections, USAID has trained tax auditors and supervisors and has
    assisted the Ministry of Finance in automating collection processes.

•   More Competitive, Market-Oriented Private Enterprises – Under the agricultural
    diversification activity, USAID introduced new profit and productivity enhancing
    technologies to the Salvadoran horticulture sector. Farmers, processors, and
    agricultural service providers have benefited from the introduction of high-value crop
    production using sustainable new technologies that have increased yields and
    incomes. Average annual client gross income for drip irrigated field clients increased
    from $1,222 per manzana to $10,342 per manzana or 758 percent (1 manzana =
    1.73 acres). Under the export promotion activity, USAID has been successful in




                                                                                                  9
      helping small and medium enterprises (SMEs) by forming trading groups, assisting
      industry associations, organizing buying missions, and participating in trade fairs.
      Under its small infrastructure activity, nine roads and one irrigation system have
      been constructed during FY 2006, benefiting 23,067 people. The irrigation system
      will allow farmers to harvest crops during the dry season. Community leaders stated
      that one new road has led to a reduction in the cost of transporting crops from $16 to
      $6 per trip. New businesses have also been established in the communities
      surrounding the new road.

•     Broader Access to Financial Markets and Services – USAID has been successful in
      training participating financial institutions to better understand how to work with
      SMEs and to better understand the importance of SMEs in fostering economic
      growth in El Salvador.

Despite these accomplishments, we noted four areas where opportunities existed to
improve performance management or program operations. More specifically, several
performance targets should be revised so that they will stay relevant, the economic
growth portfolio should be reviewed to reduce costs or increase efficiency for activities
that are not cost effective, the impact of the tax policy and administration activity can be
enhanced, and a manual for issuing awards under a contract should be developed and
approved so that USAID can fund additional SMEs. These areas are discussed in the
following sections.

Performance Targets Were
Too Conservative
    Summary: ADS 203.3.4.5 states that USAID should set performance targets that can
    optimistically but realistically be achieved. Over half of the targets in the Performance
    Management Plan were set too conservatively and were easily surpassed. The
    Mission was unable to establish more precise targets because this was the first year of
    implementation under the new strategy and four of the six key economic growth awards
    had not yet been made. Making targets more challenging will help keep the targets
    relevant and may help encourage improved results.

According to ADS 203.3.4.5, USAID operating units should set performance targets that
can optimistically but realistically be achieved within the stated timeframe and with the
available resources. Targets should be ambitious but achievable given USAID and other
donor inputs. Ten of the 19 FY 2006 targets for activity-level indicators listed in the
Performance Management Plan were set too conservatively and were surpassed by a
large margin. Some examples of overly conservative targets follow:

•     Results for the financial services activity greatly exceeded six financial services
      targets because, at the time targets were established, not all of the implementing
      partners had been selected and the number of participating financial institutions was
      still unknown. As a result, the target of 200 new loans for FY 2006 was far below the
      actual result of 1,816, representing a value of $52.3 million instead of $1 million. As
      another example, the target of 150 new borrowers was much lower than the actual
      result of 446 borrowers.

•     USAID/El Salvador planned to increase FY 2006 annual sales by assisted SMEs by




                                                                                          10
    $19.3 million. Its implementing partners greatly surpassed this target, increasing
    sales by $32.4 million because it included $13 million in sales generated by firms that
    only received training for the first time. Previously, under the export promotion
    activity, only sales from firms that received some type of technical assistance other
    than training were included. Because the methodology for counting sales has
    changed, the targets need to be increased.

•   Actual FY 2006 results of 4,805 people trained by business development programs
    far exceeded the target of 3,200. The Cognizant Technical Officer (CTO) for the
    agricultural diversification activity underestimated the number of people that were to
    be trained.

•   USAID/El Salvador’s contractor for the tax policy and administration program
    estimates that the Government of El Salvador (GOES) will achieve tax collections of
    14 percent of gross domestic product (GDP) in 2006 versus the USAID target of 13.4
    percent. Given this performance, which exceeded expectations, the USAID target
    for 2007 of 13.7 percent will likely be met earlier than planned and should be
    increased. The USAID end-of-project target of 14.5 percent by 2009 should also be
    increased, given that the GOES target is 15.2 percent by 2009 and that USAID’s
    contractor believes that a target of 16 percent would be attainable.

•   Under the trade policy activity, the work plan for the year ending August 30, 2007
    listed a target for the average number of hours for clearance and release of goods in
    customs as "less than 48 hours". However, at the end of FY 2005 goods were
    already being cleared from customs in 30 hours. The USAID CTO believed that the
    work plan used a target that was established before actual FY 2005 results were
    available. He agreed that this target should be updated.

Targets for the remaining three years of the strategy should be revised so that they are
more challenging to achieve, yet realistic. The targets were not established at a level
that was challenging to achieve because USAID relied on preliminary estimates at the
outset of its economic growth program. Only four of the six main economic growth
awards had been issued when the targets were established in November 2005. USAID
is now in a position to supplement its initial estimates with more recent information
based on actual performance for FY 2006.

Targets that are set too low are not useful for management and reporting purposes.
Increasing targets will help keep the targets relevant and may help encourage improved
results.

    Recommendation No. 1: We recommend that USAID/El Salvador revise its
    performance targets for the economic growth program as required by ADS
    203.3.4.5.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that performance targets for fiscal years 2007, 2008, and 2009 will be
revised as required by ADS 203.3.4.5.

Based on the information provided by USAID/El Salvador, we consider that a
management decision has been reached for Recommendation No. 1. Determination of




                                                                                        11
final action for this recommendation will be made by the Audit Performance and
Compliance Division (M/CFO/APC).

An Economic Analysis
Would Have Been Useful
 Summary: ADS Chapter 201 states that an economic analysis should be performed
 when an operating unit concludes that one is needed. While USAID/El Salvador
 followed a defensible process in developing economic growth activities, the process
 would have been strengthened by an economic analysis which would have helped
 quantify costs and benefits and make them more readily comparable. As a result of
 not arranging for an economic analysis, USAID/El Salvador did not have reasonable
 assurance that all of its economic growth activities were those that would have the
 greatest economic impact. In fact, based on a cursory examination of cost and sales
 information, one activity – the Artisan Development Activity – did not appear to be cost
 beneficial. An economic analysis was not performed because there was little support
 in the mission for performing such an analysis, especially in light of other demands on
 staff time.

ADS Chapter 201 describes the requirements for activity design and analysis. The ADS
notes that much of the analytical work needed to plan activities is normally conducted as
part of preparing strategic plans. USAID operating units should conduct those analyses
that they conclude are needed to plan detailed and rigorous activities to achieve the
intended results. Among the types of analysis that may be conducted is an economic
analysis, which helps determine whether a particular development program or activity is
a worthwhile investment for the country being assisted.

According to the “additional help” document referenced in ADS Chapter 201 entitled
“Economic Analysis of Assistance Activities,” the purpose of economic analysis is to
determine whether an activity is a worthwhile investment for the country, i.e., whether
the results from an activity are sufficiently valuable as to warrant the expenditure of
scare resources. Economic analysis also allows activity designers to select the least-
cost design from among alternatives, as well as to choose among alternative activities in
the same sector or in different sectors. Where results are easily evaluated in monetary
terms, an economic analysis provides one measure by which to evaluate and compare
possible interventions. Where results are quantifiable but not easily reduced to
monetary values, economic analysis allows the designer to determine the real cost per
unit output, which is indispensable in making judgments concerning an activity's value.
Where outputs are not readily quantifiable, economic analysis enables choice between
competing designs on a least-cost basis.

USAID/El Salvador followed a defensible process in designing its economic growth
activities, but an economic analysis would have strengthened the process. The design
process included a consideration of assessments prepared by several consultants and
experts and wide consultation with GOES counterparts, NGOs, private companies, and
other donors. After sifting the information it received from others, USAID/El Salvador
made financing decisions that reflected the priorities established by USAID and State
Department leadership and USAID/El Salvador’s economic growth strategy, judgments
about its own experience and expertise relative to those of other parties involved in




                                                                                       12
supporting economic growth in El Salvador, and the availability of qualified partners to
implement specific types of activities.

An economic analysis could have added rigor to this prioritization and decision-making
process by providing quantified and largely objective information on the costs and
benefits of proposed activities. Performing an economic analysis does not eliminate all
subjectivity from the activity selection process but it does add discipline and structure to
the process, largely by expressing costs and benefits in common monetary terms that
facilitate comparison of alternative activities and implementation methods.

In the absence of an economic analysis, in our opinion, USAID/El Salvador was not
reasonably assured that all of the activities it was financing were those that would have
the greatest impact in terms of contributing to transformational development. This is not
to say that the activities USAID/El Salvador is financing are not worthwhile or not
valuable to the beneficiaries. Rather, our point is that there is not a strong analytical
basis for concluding that USAID/El Salvador is financing the most worthwhile activities.

While we did not ourselves attempt any economic analysis of the activities supported by
USAID/El Salvador, a cursory examination of readily available information indicates that
at least one of the activities – the Artisan Development Activity – may not produce
economic benefits that justify the cost of the activity. Over the life of the activity from
June 2002 through June 2009, program costs are expected to total $6.2 million while
increased sales due to the activity are expected to total only about $5.7 million, or 92
percent of program costs.5 Even if sales could be taken to represent net benefits to El
Salvador – and we believe that they actually overstate them since opportunity costs
would need to be deducted to determine net benefits – this does not appear to represent
a cost effective use of USAID funds.6

USAID/El Salvador did not arrange for an economic analysis of the activities included in
its economic growth program for at least two reasons. First, in our opinion, since
USAID’s activity development procedures were modified in the mid-1990s to make
economic analysis optional, economic analysis has become almost vanishingly rare
within USAID. We are sympathetic, in theory, to the proposition that economic analysis
should be performed only when it is useful, and that USAID operating units should be
empowered to decide when in fact it would be useful. Unfortunately, in practice, many
USAID employees would say that they are responsible for accomplishing more than they
actually have time to accomplish, and under these circumstances it is unrealistic to
imagine that they will elect to take on optional analyses which are difficult and time
consuming. Second, at least one USAID/El Salvador official is of the opinion that it is

5
  As of September 30, 2006, cumulative sales were $2.5 million and cumulative USAID costs (i.e.,
   excluding cost sharing contributions) were $3.3 million. (USAID’s partner plans to help
   establish a local organization to sustain the program after the end of USAID funding and has
   projected that sales during the first three years after the end of USAID funding could total $3.1
   million. However, there is no estimate of the costs that would be incurred during this period.)
6
  It may be relevant to state here that some other activities financed under the economic growth
   program are expected to produce substantially higher returns although, again, we did not
   attempt any type of economic analysis. For example, under the export promotion activity the
   contractor expects to generate increased sales about five times greater than program costs,
   and the agricultural development activity has reported increased sales of about three times
   program costs.




                                                                                                 13
too difficult to project economic benefits with enough precision to make economic
analysis valuable. We would have to disagree with this position, and we continue to
regard economic analysis as a best practice, especially for large programs like the
economic growth program where USAID anticipates a total investment of $70 million,
and especially in fields of endeavor like the economic growth field, where it is relatively
easy to express costs and benefits in monetary terms.

While we are not recommending that USAID/El Salvador perform an economic analysis
at this late stage, when activities are already underway, we do think it would be useful
for USAID/El Salvador to at least review its economic growth activities and consider how
likely it is that they will produce benefits that justify their costs. For activities like the
Artisan Development Activity, where readily available information indicates that the
activity is not cost effective, the Mission should take corrective action or to increase cost
efficiency, perhaps after undertaking additional analysis.

   Recommendation No. 2: We recommend that USAID/El Salvador review its
   economic growth portfolio, using readily available information on economic costs
   and benefits, and take appropriate action to reduce costs or increase cost
   efficiency for those activities that it concludes are not cost effective.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that it will develop a matrix with calculations of expected, direct financial
costs to be incurred by USAID and its partners and contrast these costs to the expected,
direct financial benefits during and after the activity period. For those activities not
deemed cost effective, this analysis will be used as a basis for appropriate action by
USAID managers.

Based on the information provided by USAID/El Salvador, a management decision has
been reached for Recommendation No. 2. Determination of final action for this
recommendation will be made by the Audit Performance and Compliance Division
(M/CFO/APC).

The Tax Policy and Administration
Program Can Be Enhanced
Summary: The audit identified opportunities to enhance the effectiveness of the tax
policy and administration program by (1) developing information on the incidence of
taxes and compliance rates by income level, (2) developing an enforcement program
that focuses on transfer pricing schemes, and (3) moving beyond tax administration
issues to open a dialogue with the GOES on its tax structure. Details on each of these
three areas are discussed below.

USAID/El Salvador’s assistance in tax policy and administration has a long record of
accomplishment dating back to 1991. During two earlier assistance programs, for
example, USAID helped the GOES increase tax revenues as a percentage of GDP from
8 percent in 1990 to 12 percent in 1995 and from 11 percent in 2001 to 13 percent in
2005. The current program, which began in August 2005, is designed to build on these
earlier successes by helping the GOES further improve tax administration and, if
deemed necessary, by helping analyze and draft proposed changes to the tax structure




                                                                                           14
itself. During our audit, we noted opportunities to enhance the impact of the program by
taking actions in the three areas discussed below.

Incidence of Taxes and Compliance Rates by Income Level – Information on the
incidence of taxes by income level – that is, the degree to which existing taxes fall on
low income and higher income taxpayers – is among the most basic information needed
to assess the effect of taxes on economic activity and to make judgments about the
fairness of a tax system. Information on compliance rates by income level is needed to
help focus enforcement programs and, again, inform judgments about fairness. To date,
no such information has been developed, although officials working on the tax policy and
administration program agreed that it would be useful. This information has not been
gathered, among other reasons, because the program only recently got underway and
attention was focused on other priorities. As a result, information that is needed to make
tax policy and enforcement decisions is not available to decision makers in the GOES.

Transfer Pricing Schemes – USAID’s contractor for the tax policy and administration
program has urged the GOES to develop an enforcement program focused on transfer
pricing schemes in which corporations and wealthy individuals fraudulently transfer
income from El Salvador to overseas tax havens by paying for goods and services that
are overpriced or not delivered at all. The contractor estimates that one-quarter of all
income tax evasion in El Salvador takes place through such transfer pricing schemes.

To date, the GOES has been reluctant to focus enforcement efforts on these schemes,
citing concerns about El Salvador’s competitiveness. It is difficult to believe that any
country would choose to compete with others on the basis of lax tax law enforcement,
but in any event, according to USAID’s contractor, El Salvador’s neighbors are all
making progress in combating transfer pricing schemes, so concerns about
competitiveness are a chimera.

Reducing tax evasion through transfer pricing schemes could make available immense
new revenues to the GOES. For example, reducing tax losses from transfer pricing
schemes by one half could increase tax revenues by roughly $150 million annually.7

Tax Structure – Several authorities, taking note of the imbalance between the demands
placed on the GOES and its tax revenues, have suggested that changes to the tax
structure may be needed. Such changes might well include establishment of a land or
property tax. For example, the International Monetary Fund (IMF) has urged the GOES
to consider additional tax measures to complement its efforts to reduce tax evasion, and
a 2002 IMF working paper pointed out that property taxes were very low throughout
Central America and concluded that “property taxation is an under-used source of
revenue and should also be strengthened …”8 Several consultants that contributed to
the design of USAID/El Salvador’s economic growth program reached similar
conclusions, with one contractor concluding that a property tax “is one obvious area


7
  This estimate is based on estimates by USAID’s contractor that the income tax evasion rate is
   59 percent and that 25 percent of income tax evasion is due to transfer pricing schemes.
8
  International Monetary Fund, “IMF Executive Board Concludes 2006 Article IV Consultation with
   El Salvador” (Pubic Information Notice No. 06/84), July 31, 2006 and Stotsky, Janet and
   Asegedech WoldeMariam, “Central American Tax Reform: Trends and Possibilities,” (IMF
   Working Paper No. WP/02/227), December 2002.




                                                                                            15
where additional revenues might be sought.”9 Finally, U.S. Embassy officials in El
Salvador have drawn a relationship between the level of available resources and the
ability of the GOES to deal effectively with crime and other challenges, and have
suggested that the time might be right to examine the tax structure including the need for
a property tax.

We believe that it is important to open a dialogue with the GOES on the tax structure,
perhaps including a discussion of the merits of a land or property tax. Currently, there is
no universal property tax in El Salvador, although some municipalities impose modest
charges based on formulas that generally do not correspond closely to property values,
such as the number of linear meters of street frontage of a property.

A land or property tax could increase revenues substantially and permit government
institutions to govern more effectively. If these revenues accrue to local governments, a
property tax would support USAID/El Salvador’s governance strategy, which is based on
the premise that governance is strengthened when fiscal and other authorities are
decentralized to the local level, where citizen oversight of government actions is thought
to be more effective. Finally, a well-designed land or property tax could encourage more
productive use of land, which is a scarce resource in El Salvador.

Discussions with the GOES have not yet taken this direction because the tax policy and
administration program is heavily focused on tax administration rather than reform of the
existing tax structure. (However, the task order with USAID’s contractor indicates that, if
deemed essential, the contractor may assist with reform of the tax structure itself.) No
discussions with the GOES on a possible property tax have been held because property
taxes are often considered to be in the domain of local governments and the contractor
is working with the Ministry of Finance, a national level institution.

                                         *   *   *
To help the tax policy and administration program build on previous successes and
enhance the program’s effectiveness in the three areas outlined above, we offer the
following recommendations:

     Recommendation No. 3: We recommend that USAID/El Salvador, working
     through its contractor, develop and make available to Government of El Salvador
     tax authorities information on tax incidence and compliance rates by taxpayer
     income level.

     Recommendation No. 4: We recommend that USAID/El Salvador work with the
     Government of El Salvador to implement a program to reduce tax evasion
     through transfer pricing schemes and obtain evidence that such a program has
     been implemented.

     Recommendation No. 5: We recommend that USAID/El Salvador build on its tax
     administration assistance by developing and implementing a plan to engage the
     Government of El Salvador at the highest level in a dialogue on its tax structure,
     possibly including the need for a land or property tax, and drawing on the

9
    Carana Corporation, “Economic Growth Strategy for USAID/El Salvador: Final Synthesis
    Report,” April 6, 2004.




                                                                                          16
     analytical capabilities of its current contractor or other sources of expertise as
     necessary.

Evaluation of Management Comments – In response to Recommendation No. 3 of our
draft report, USAID/El Salvador stated that it will ensure that its contractor works with the
GOES database and Ministry of Finance personnel to carry out an analysis of tax
incidence and compliance rates by income level. With regard to Recommendation No.
4, it will provide specialized training on transfer pricing and work with the Tax
Investigation Unit to develop a set of written investigation guidelines for transfer pricing.
Concerning Recommendation No. 5, it will initiate a comprehensive study of the El
Salvador tax system, including opportunities for reform, and plans to share and discuss
this report with high-level government officials.10

Based on the information provided by USAID/El Salvador, we consider that a
management decision has been reached for Recommendation Nos. 3 and 5.
Determination of final action for these recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

For Recommendation No. 4, we believe that USAID/El Salvador’s proposed actions are
constructive but do not fully satisfy the intent of the recommendation since they focus on
inputs rather than results.       In addition to financing training and guidelines for
investigating fraudulent transfer pricing schemes, we believe that USAID/El Salvador
should approach GOES policymaking officials to persuade them to implement an
enforcement program focused on transfer pricing schemes. (If USAID/El Salvador
exerts its best efforts at the appropriate level but is unsuccessful, then we may close the
recommendation on the basis that it is impractical to implement the recommendation.
Again, though, we think that the case for implementing an enforcement program focused
on transfer pricing is compelling.)

A Portion of the Export
Promotion Activity Was Delayed
 Summary: A portion of an activity designed to help small and medium enterprises
 increase exports has been delayed for five months because USAID/El Salvador has not
 yet approved the operating manual to be used by its implementing partner to provide
 technical assistance, invitational travel, and other services. The delay occurred mainly
 because the draft manuals submitted by USAID’s partner were incomplete. As a result
 of not having an approved manual, USAID missed the opportunity to fund an estimated
 23 small and medium enterprises. USAID’s approval of the manual is needed because
 USAID must ensure that the requirements that apply to its grants also apply to grants
 that a USAID partner executes.




10
   USAID/El Salvador also expressed the opinion that these recommendations went beyond the
audit objective of determining whether activities achieved planned results. We are concerned
that too narrow an interpretation of our audit objective could lead to a program results audit that
includes nothing more than an uninteresting and mechanical comparison of planned and actual
results. We interpreted our audit objective less narrowly, allowing room for recommendations to
improve program outcomes.




                                                                                                17
USAID has not been able to help several SMEs to increase exports for the past five
months as anticipated due to delays in approving the operating manual for the export
development fund managed by Fomento a las Exportaciones (FOEX), an operating unit
within the Ministry of Economy. Through FOEX and USAID’s implementing partner,
USAID provides 50-50 co-financing of technical assistance, invitational travel, and other
services for individual enterprises or associative groups, up to a maximum amount of US
$25,000. USAID intends to provide up to $1,250,000 for the fund, with $424,210
budgeted for the activity’s first year ending on March 31, 2007. In July 2006, USAID’s
implementing partner approved three firms for a total of $50,000 through the fund.
Shortly thereafter, USAID’s partner decided to postpone the distribution of funds through
FOEX based on a warning by USAID’s contracting office. USAID suggested that the
partner discontinue the issuance of additional funds to SMEs in the absence of an
approved operating manual.

In our opinion, the delay occurred mainly because the draft manuals submitted by the
partner to USAID/El Salvador were incomplete. The USAID Contracting Officer stated
that four drafts have already been reviewed and determined to be unacceptable. While
they may have been acceptable from a technical point of view, they did not address what
controls will be in place to ensure that funds will be distributed in accordance with USAID
regulations. The manuals did not clearly explain what types of awards will be used
(grants and/or purchase orders; fixed price and/or reimbursable).

A financial analyst working for the implementing partner estimated that, as a result of the
delay in agreeing on the procedures to be used, USAID and its partner have missed the
opportunity to assist about 23 firms, which also represents missed opportunities for
additional export sales and job growth. This estimate is based on the activity’s prior
experience of approving 4.5 companies per month for the five months between August
and December 2006.

ADS 302.3.4.8 specifically states that grants may be awarded under contracts only after
“the Head of the Contracting Activity provides written approval … USAID must ensure
that the requirements that apply to USAID-executed grants will also apply to grants that
a USAID contractor executes.” In other words, as explained by a Contracting Officer,
the Mission Director should approve the funding of SMEs through FOEX in a memo
prepared by the Cognizant Technical Officer.

   Recommendation No. 6: We recommend that USAID/El Salvador obtain from the
   implementing partner of the export promotion activity an adequate operating
   manual for approval by the Contracting Office as soon as possible.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador reiterated that it has made several requests for an operating manual that
complies with USAID rules and regulations. The latest version is being reviewed by the
Contracts Office and should be approved shortly.

Based on the information provided by USAID/El Salvador, a management decision has
been reached for Recommendation No. 6. Determination of final action for this
recommendation will be made by the Audit Performance and Compliance Division
(M/CFO/APC).




                                                                                        18
Did USAID/El Salvador’s reporting on its economic growth
activities provide stakeholders with complete and accurate
information on the progress of the activities and the results
achieved?
USAID/El Salvador’s reporting on its economic growth activities did not provide
stakeholders with complete and accurate information on the progress of the activities
and the results achieved. Information presented in the Annual Report and the
Congressional Budget Justification was presented without contextual information that a
reader would need to interpret the information correctly. In addition, more needs to be
done to verify the quality of data reported by USAID’s partners and site visits were not
documented. These areas are discussed in the following sections.

Mission Reporting Lacked
Needed Context
Summary: USAID Annual Reports and Congressional Budget Justifications inform
decisions about the success of USAID’s programs and the level of resources needed to
implement the programs. Given their importance, the information presented in these
documents needs to be complete and accurate. However, some of the Mission’s
reporting on its economic growth program could leave readers with incorrect impressions
of the results achieved under the program because needed contextual information was
omitted. This occurred for several reasons. For example, the Mission staff that
prepared reports on the economic growth program were intimately familiar with the
program and were susceptible to the mistake of assuming too much knowledge on the
part of their readers. As another example, Mission staff wanted to leave a positive
impression of their programs and this may have led them to emphasize positive
developments. As a result, there was a risk that readers might reach erroneous
conclusions about the progress of the economic growth program and the challenges that
remain.

ADS 203.3.8.1 states that “the Annual Report is the Agency’s principal tool for assessing
program performance on an annual basis and communicating performance information
to higher management levels and external audiences such as Congress and the Office
of Management and Budget (OMB).” The Annual Report Guidance provided by
USAID/Washington adds that the Annual Report is “used to collect and analyze program
and resource information for a variety of purposes, including the Congressional Budget
Justification (CBJ), the Agency’s Performance and Accountability Report (PAR), and the
Annual Budget Submission (ABS) ... The Annual Report application has become the
Agency’s primary program reporting document; it is critically important for a number of
budget and performance reporting requirements.”            Since Annual Reports and
Congressional Budget Justifications may be used to make decisions about the success
of USAID’s programs and the level of resources needed to implement the programs, it is
vitally important to present complete and accurate information in these documents.

However, there were cases where information that would be needed to correctly
understand the progress of the economic growth program and its results was not
reported. Some examples follow:




                                                                                      19
•   USAID/El Salvador’s Annual Report noted that 1,855 new jobs were created under
    its artisan development activity. This was in fact an estimate of the number of part-
    time jobs created under the activity. The estimate was developed from sales figures,
    by making assumptions about the quantity of labor needed to generate a given
    amount of sales. (We noted that the partner implementing this activity has not
    recently evaluated the reasonableness of these assumptions.) The precision of the
    reported figure, combined with the fact that the Mission did not disclose that the
    figure was an estimate or that the figure represented part-time jobs, could leave
    readers with an incorrect impression.

•   The Annual Report reported that 429 new jobs were created under the agricultural
    diversification activity. This figure is based on a series of estimates based on the
    land area and specific crops cultivated with assistance from USAID’s contractor. For
    example, to estimate the number of jobs created in the coffee sector, USAID’s
    contractor utilizes research done by PROCAFE and obtains tables of the number of
    labor days that are required per 100 lb. bag of regular coffee and specialty coffee.
    From the table, the contractor calculates the incremental amount of labor used when
    a farmer switches from regular coffee to specialty coffee. According to the Coffee
    Council, 250 labor days equals one permanent job. Therefore, in order to calculate
    jobs created, the contractor adds up all the incremental labor days created and
    divides the result by 250. Again, reporting a less precise figure and indicating that it
    is an estimate would better ensure that readers do not reach unwarranted
    conclusions.

•   In the FY 2007 Mission Performance Plan, USAID/El Salvador reported that the
    program had increased export and domestic agricultural and SME sales by $26.35
    million. However, the actual increase was $28.6 million. Mission staff explained that
    they had relied on estimates to report increased sales.

•   In the Annual Report, the Mission reported that 633 new jobs had been created
    between October 1, 2004 and June 30, 2005 under its export promotion activity, but
    the correct figure was 1,162. The number of jobs created was understated because
    USAID relied on an estimate and did not take into account the results from a survey
    performed by a research firm.

•   The Annual Report reported that “USAID support led to a 120% increase in export
    and domestic sales, to $16.1 million … USAID assistance directly led to an increase
    in sales by Salvadoran firms of $10.2 million...” These two statements may be
    confusing because the reader may incorrectly believe that the $10.2 million figure is
    included in the $16.1 million figure. In fact, they are additional sales. Another
    problem with this passage is that the $16.1 million increase in export and domestic
    sales is not a 120 percent increase in sales, as implied, but rather an increase of 120
    percent over the performance target.

•   In general, where increased sales, new jobs, or the number of businesses assisted
    are cited by the Mission, it is difficult to judge the significance of the
    accomplishments because no context is provided. For example, when a reader
    reads that $10.2 million in sales were generated in FY 2005, it would also be helpful
    to know how this relates to the pre-existing level of sales: that is, it would be useful to
    know the percentage increase in sales.




                                                                                            20
•    In its Annual Report, USAID/El Salvador reported that “over 47,800 new rural clients
     have access to financial services.” This statement could leave an incorrect
     impression because this is the number of new clients since the Mission began its
     financial services activities several years ago. The Annual Report is designed to
     report achievements during a single fiscal year.

•    The Mission’s Annual Report stated that “distribution of income remains inequitable,
     with the poorest 20% receiving only 3.4% of national income … Poverty rates are
     close to 44% in the rural areas.” The significance of these statistics is difficult to
     appreciate without any comparative information from past years or from other
     countries.

•    The Annual Report had two sections, one which covered results under the old
     strategy from October 1, 2004 to June 30, 2005, and a second which described
     results under the current strategy which began on July 1, 2005. Since many of the
     same indicators are described in both sections, without any explanation, a reader
     may easily become confused. For example, the Mission reported $842,751 in sales
     and 1,603 new jobs from artisan development activities in the first section and
     $150,000 in sales and 252 new jobs in the second section. In our opinion, most
     readers would not understand why two sets of different figures were reported.

•    The Annual Report stated that the “economy is expected to grow at approximately
     2.5%, exceeding expectations.” In this passage, USAID/El Salvador reported a
     projection of GDP growth but did not report expected population growth, which the
     U.S. Census Bureau’s International Database has estimated at 2.2 percent for 2005.
     Without this contextual information, a reader would likely reach a positive conclusion
     about the progress of El Salvador’s economy. With this contextual information, the
     reader would likely reach a more neutral or even negative conclusion: namely, that El
     Salvador’s economy is not growing fast enough to leave its citizens materially better
     off.11

•    The Annual Report reported that “the administration … continues to emphasize its
     commitment to trade-led growth and competitiveness, increased security,
     transparent and responsible government, job creation and increased social
     investment. Progress is being made in most areas with the exception of security.”
     This excerpt conveys a positive impression of the GOES’ reform efforts, but other
     authorities have offered more balanced assessments. For example, the World Bank
     wrote that:

        El Salvador has achieved considerable progress in the institutional and governance
        front over the past decade. However, serious deficiencies still exist, particularly in
        the rule of law and personal security front, as evidenced by corruption, violence and
        crime indicators. Weaknesses in the rule of law are part of the reason for the
        apparent low growth yield of reforms in El Salvador in recent years.12

     As another example, an academic researcher wrote that:

11
    In the event, El Salvador’s economy grew faster than USAID/El Salvador expected – 2.9
   percent versus the expected 2.5 percent – so real per capita GDP increased about 0.7 percent.
12
   World Bank, Country Assistance Strategy for the Republic of El Salvador, April 20, 2005.




                                                                                                 21
        Possibly a poor institutional infrastructure – including the perception of a low regard
        for the rule of law, lack of accountability, an inefficient judiciary, limited respect for
        property rights and [a] high level of corruption – has been the greatest impediment to
        increasing investment.13

     Other authorities have provided even more negative assessments. Presenting a
     more balanced assessment could have helped readers reach more realistic,
     nuanced conclusions about the policy environment for economic growth in El
     Salvador.

•    The Annual Report adds that “USAID continues to play a role in this economic
     transformation, with activities that have increased the competitiveness and
     productivity of Salvadoran firms.”

     A reader could easily conclude from this statement that USAID/El Salvador is having
     a national level impact on the competitiveness and productivity of Salvadoran firms,
     and that competitiveness and productivity are increasing. In fact, USAID/El Salvador
     is working with a subset of Salvadoran firms – perhaps 15 percent or so, if firms with
     10 employees or fewer are excluded from the denominator – and it is an open
     question whether the competitiveness and productivity of Salvadoran firms are
     increasing or not. The IMF, for example, takes the view that they are not, reporting
     that “a weakening of external competitiveness is likely to have contributed to low
     growth. Factors that have affected competitiveness include … high wage costs …
     problems related to lack of innovation … and … low quality of education, resulting in
     weak labor force skills.”14

There were several reasons why needed contextual information was omitted from
Mission reports. First, the Mission staff that prepared reports on the economic growth
program were very familiar with the program and the environment that it is implemented
in, and they may have assumed too much knowledge on the part of their readers.
Second, some Mission staff wanted to leave a positive impression of their programs and
this may have led them to emphasize positive developments. This is common practice
in any type of persuasive writing, and we are not suggesting that Mission staff did
anything underhanded or unethical. Rather, we are suggesting that a different strategy –
taking pains to present a balanced picture of both successes and challenges, and
pointing out unmet needs for assistance and constraints that are not being addressed
due to insufficient resources or lack of political will on the part of the GOES – might
produce better results. Finally, it should be noted that the Mission was following defined
reporting formats with space limitations. In these circumstances, perfect clarity in
reporting may be an unattainable goal.

As a result of reporting information that was not placed in context so it could be properly
understood, USAID/El Salvador’s reporting on the economic growth program could leave
readers with an incorrect impression of the progress of the economic growth program or
with unrealistic expectations of the contribution that USAID/El Salvador’s program would

13
    Edwards, Sebastian, “The Slowdown of Economic Growth in El Salvador: An Exploratory
   Analysis,” unpublished draft monograph, 2003, p. 38.
14
   International Monetary Fund, “El Salvador: Selected Issues – Background Notes” (IMF Country
   Report No. 05/270), August 2005, p. 4.




                                                                                                     22
have on economic performance. This could lead decision makers to allocate resources
based on decisions that are not based on an understanding of actual conditions in El
Salvador, or could lead to disenchantment with the performance of USAID/El Salvador’s
economic growth program if better economic performance in El Salvador is not
forthcoming.

   Recommendation No. 7: We recommend that USAID/El Salvador require Aid to
   Artisans to periodically validate the formulas used to estimate the number of new
   jobs created or obtain information on the actual number of new jobs created
   directly from assisted firms.

   Recommendation No. 8: We recommend that USAID/El Salvador implement a
   system to ensure that reports 1) clearly disclose the use of estimates or perhaps
   provide a range of values, when appropriate, rather than reporting estimates as
   precise figures, and 2) present sufficient contextual information to facilitate
   understanding of its reporting on the economic growth program.

Evaluation of Management Comments – In response to Recommendation No. 7 of our
draft report, USAID/El Salvador stated that its partner for the artisan development
activity will conduct a survey among a broad sample of firms assisted by the program to
collect direct information of new jobs created by these firms. The results will then be
compared to the formula estimates to verify deviations and make appropriate
corrections. With regard to Recommendation No. 8, the Mission noted that the new
global reporting template limits the ability of USAID missions to report on indicators and
provide contextual information. The Mission also stated that it has disclosed the use of
estimates, to the extent possible, and provided contextual information in reports for
external use. The Mission requested closure on issuance of the final audit report.

Based on the information provided by USAID/El Salvador and our review of the FY 2007
Operational Plan, we consider that a management decision has been reached for
Recommendation Nos. 7 and 8. We observed that the FY 2007 Operational Plan
provided additional contextual information on reported results, although the Mission did
not disclose that the reported numbers of jobs created under USAID-financed activities
were estimates, did not disclose how the estimates were arrived at, and did not disclose
that jobs created under the artisan development activity were part-time jobs.
Determination of final action for these recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

Periodic Reviews of Reported
Data Have Not Been Performed
Summary: USAID guidance suggests that periodic data quality reviews be completed to
ensure completeness, accuracy, and consistency. Additionally, some Mission data
quality assessment documentation stated that periodic spot checks of data would take
place. However, economic growth responsible staff did not periodically verify the quality
of their data as required. Instead, the staff relied on contractors to report and review
data. As a result of not performing periodic quality reviews of the data collected for
activity performance monitoring and, thus, over-relying on contractor reported figures,
reported results may be inaccurate. Additionally, decision makers who rely on the
performance data reported to them without verifying the quality of those data could make




                                                                                       23
incorrect assessments as to how to utilize their limited resources most effectively.

USAID’s Automated Directives System (ADS) 203.3.5.2 states that the Operating Unit
and the Strategic Objective (SO) Team should be aware of the strengths and
weaknesses of their data and to what extent the data can be trusted to influence
management decisions.        Additionally, USAID’s Performance Management Toolkit
supplementary guidance document states that the goal to assessing data from
implementing partners and secondary sources is to be aware of the data strengths and
weaknesses and the extent to which data can be trusted when making management
decisions and reporting. It also states that a practical approach to planning data quality
assessments includes an initial data quality assessment and periodic quality reviews for
completeness, accuracy, and consistency.

Review of several of the Mission’s data quality assessments indicates that the Mission
would periodically validate the integrity of the data collected on job creation and
increased sales through spot checks by the responsible CTOs. However, the CTOs did
not conduct periodic testing and verification of the quality of the data they were being
provided and, therefore, relied too heavily on the results reported by the implementing
partners. For example, one CTO relied completely on a contractor to report the number
of beneficiaries served by infrastructure activities and did not verify the amount of cost
sharing claimed by communities. Another CTO relied on complicated estimates of new
jobs that are provided by a contractor and did not check on the accuracy of these
estimates. In general, Mission staff relied on contractors to report data and ensure data
quality, and did not recognize the importance of independently verifying data quality.

Periodic verification of performance data provided by the partners could have allowed
one CTO to recognize that the process used by one partner to record the increase in
sales under the export development activity could be improved. We identified three
errors with regard to reporting incremental sales. In one case, the error was the result of
a data transcription error by USAID/El Salvador’s contractor. In another case, the
contractor misinterpreted the source data provided by the SME and recorded the wrong
amount. Sales results for a third firm were incorrect because the spreadsheet contained
an incorrect calculation formula. Another file showed that 45 firms had exported as of
September 30, 2006 when the correct number was 48. In the cases mentioned above,
none of the errors were significant; however, it is likely that there are similar types of
errors throughout the spreadsheets, some of which may be significant.

Data quality assessments and periodic verification ensure consistent and reliable data is
being collected for management decision making purposes as well as for reporting
purposes. Without such assurances, decision makers may come to erroneous
conclusions regarding the performance of their programs leading to imperfect
management decisions, and the reporting of incorrect information to interested parties.

   Recommendation No. 9: We recommend that USAID/El Salvador require
   Cognizant Technical Officers to periodically sample and review their
   implementing partners’ data for completeness, accuracy, and consistency.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that it will issue a Mission Order to require CTOs to periodically select
and review a sub-set of indicator data from implementing partners to review for




                                                                                        24
completeness, accuracy, and consistency. A standard worksheet will be developed to
record the results of this exercise.

Based on the information provided by USAID/El Salvador, we consider that a
management decision has been reached for Recommendation No. 9. Determination of
final action for this recommendation will be made by the Audit Performance and
Compliance Division (M/CFO/APC).

Site Visits Are Not Documented
 Summary: USAID’s Automated Directives System (ADS) requires that CTOs write a
 brief report highlighting findings encountered during site visits to document the active
 management of awards. However, site visits were not formally documented because
 staff in the economic growth office did not think that it was a good use of their time to
 document them given their workload. Without properly documenting observations of
 the implementing partners’ actual progress and compliance with the award
 requirements, Mission staff do not have a complete documented account of the
 progress of the project on which to base management decisions.

ADS 303.3.17 states that “site visits are an important part of effective award
management, since they usually allow a more effective review of the project … When
the Agreement Officer or CTO makes a site visit, the Agreement Officer or CTO must
write a brief report highlighting findings, and put a copy in the official award file.”

Additionally, USAID’s Guidebook for Managers and Cognizant Technical Officers on
Acquisition and Assistance states that the CTO should document all significant actions
including any technical directions given to the contractor in the work file or a separate
action file. The file must be maintained intact and updated by each successor CTO until
the contract ends. Site visits are a key element in the CTO’s ability to monitor the
progress of contractors. Site visits allow the CTO to observe the contractor at work to
determine if the performance is in compliance with the contract. These visits also allow
the CTO to, among other things, check the actual contractor performance against the
scheduled performance and verify reported performance progress.

Although some of the Mission’s Economic Growth CTOs reported that they kept notes or
reported on activities that were problem areas, most did not formally document and
record their site visit findings in the award files as required. One CTO stated that he
started documenting some site visits made during FY 2006. Another CTO explained that
only problems that were encountered during site visits were documented and some
CTOs did record notes during their visits, but did not regularly prepare formal site visit
reports. According to staff, documenting each site visit became a low priority
considering their workload.

In order to effectively manage a contract or cooperative agreement, the CTO must have
a record of the progress of the implementing partner, whether positive or negative. The
CTO’s documentation of the partner’s progress supports the Mission’s actions with
regard to addressing problems or taking advantage of positive momentum in the
program or project. Without proper documentation of events and progress, there lies the
possibility of inconsistent management of the program and, in the case of a new CTO
being tasked with the program, incomplete information regarding the progress of the




                                                                                       25
program that could result in erroneous decisions and inappropriate actions taken with
regard to the program.

The Economic Growth Team Leader acknowledged this issue and explained that
discussions are underway regarding the use of a standardized report for all CTO site
visits.

   Recommendation No. 10: We recommend that USAID/El Salvador require a
   written site visit report to document the purpose and the results of each visit.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that it will issue a Mission Order to record site visits to projects
documenting the purpose and results.

Based on the information provided by USAID/El Salvador, we consider that a
management decision has been reached for Recommendation No. 10. Determination of
final action for this recommendation will be made by the Audit Performance and
Compliance Division (M/CFO/APC).

Other Matters
Two other matters came to our attention during the course of the audit that require
corrective action by USAID/El Salvador. Specifically, obligations to the economic growth
SOAG did not comply with forward funding requirements and the cost of equipment for
the Superintendency of Competition was not justified.

Obligations to the Economic Growth SOAG Did
Not Comply with Forward Funding Requirements
 Summary: USAID policy states that, for new programs, missions should not initially
 forward fund obligations by more than 24 months, and subsequently should not forward
 fund obligations for more than 12 months beyond the end of the fiscal year in which the
 obligation takes place. However, the Mission exceeded these requirements for its
 economic growth SOAG in fiscal years 2004, 2005, and 2006 by a total of $27.4 million.
 Based on expected expenditures for 2007, the Mission currently has exceeded forward
 funding requirements by $11 million. This occurred because of (1) delays in program
 implementation, and (2) receiving funds on a straight-line basis, which does not take
 into account the expected expenditure levels for the program. As a result, excess
 funds of $11 million that could be used by USAID to fund activities during the current
 fiscal year remain idle.

ADS Section 602.3.3 states that for new programs, missions should not initially forward
fund obligations by more than 24 months. Thereafter, as stated in ADS Section 602.3.2,
program managers should not forward fund obligations for more than 12 months beyond
the end of the fiscal year in which the obligation takes place.

However, USAID/El Salvador exceeded these requirements for its economic growth
SOAG as follows:




                                                                                      26
      Date of         Obligations             Unexpended            Excess Obligations
     Obligation                               Obligations
                                              as of 9/30/06
       9/16/04             $15,459,000              $4,285,933                 $4,285,933
     6/15/05 and
       9/27/05             $17,831,985              $12,129,497               $12,129,497
     7/14/06 and
       9/25/06             $16,187,527              $16,187,527             $11,002,95715

        Total              $49,478,512              $32,602,957               $27,418,387

Based on the above, the Mission exceeded forward funding requirements by $4,285,933
for the FY 2004 obligations and by $12,129,497 for the FY2005 obligations. In addition,
because the Mission had large outstanding obligations from prior years, the Mission
should have only obligated about $5.2 million in September 2006 instead of $16.2
million. Therefore, the Mission exceeded forward funding requirements in fiscal years
2004, 2005, and 2006 by a total of $27.4 million.16

The large unexpended obligations balance was due to two reasons. First, the activities
under the SOAG were slow to start due to various factors. A principal factor was the
lengthy contracting process for several activities, including the lengthy negotiations of
program proposals. Another factor was that the Mission’s contracting office and
economic growth office assumed regional responsibilities, which overburdened these
offices and contributed to the delays. In addition, the watershed activity—funded by the
SOAG—only began implementation in FY 2007. Second, the Mission received funds on
a straight-line basis, which did not take into account the expected expenditure levels for
the program. That is, the normal expenditures for a 5-year program are lower
expenditures in years 1-2 due to start up, higher expenditures in years 3-4, and lower
expenditures in year 5 as activities wind down. The Mission was hesitant to turn down
and return the funds because there was no guarantee that it would receive the
necessary funds in future years.

As a result, excess funds that could be used by USAID to fund activities during the
current fiscal year remain idle. Because USAID/El Salvador was also concerned about
the large pipeline,17 the Mission performed a pipeline analysis of funding to the economic
growth SOAG in November 2006. The analysis showed that based on the average
quarterly expenditure rate in 2006, the current pipeline will be exhausted over the next 3
years. Furthermore, the analysis indicated that the Mission expects to expend the
remaining total authorized program funding over the final three years of the program.
The Mission projected expenditures for 2007 to be $21.6 million.18



15
   Amount obtained by taking the unexpended obligations of $32,602,957 as of September 30,
   2006 less the projected expenditures for FY 2007 of $21.6 million.
16
   Amount obtained by adding the unexpended balances as of September 30, 2006 for FYs 2004
   and 2005 and the expected unexpended balance at the end of FY 2007.
17
   Pipeline is synonymous with unexpended obligations.
18
    This assumes that the full amount authorized by the SOAG of approximately $68.8 million
   would be obligated and expended by the scheduled program end date of September 2009 and
   assumes a much higher expenditure rate for 2007, than in 2008 and 2009.




                                                                                        27
Even after assuming what appears to be an optimistic expenditure level in 2007 of $21.6
million, the Mission still has exceeded forward funding requirements by $11 million. The
$11 million should be reprogrammed by USAID to fund other activities during the current
fiscal year.

   Recommendation 11: We recommend that USAID/El Salvador reprogram $11
   million to program areas where the funds can be used within the current fiscal
   year.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that it had already initiated actions to both accelerate expenditures and
reallocate funding. Once it receives the final operating year budget for FY 2007, it will
complete an analysis of the economic growth portfolio and make a management
decision concerning reprogramming, invoking an exception to forward funding guidance,
or implementing a combination of both options.

Based on the information provided by USAID/El Salvador, a management decision will
be reached once the Mission decides on a firm plan of action with timeframes for
implementing the recommendation.

Cost of Equipment for Superintendency
of Competition Was Not Justified
Summary: USAID operating units are responsible for managing resources in a cost-
effective manner.   The scope of the proposed equipment procurement for the
Superintendency of Competition was scaled back, so at least $119,355 of the $150,000
budget can be reprogrammed for other uses. Another $26,667 went to purchase video
conferencing equipment that was not justified. This occurred because USAID/El
Salvador and its contractor, in large part, deferred to the Superintendency in defining
how the equipment budget would be used. As a result, a total of $146,022 can be
reprogrammed for higher priority uses.

ADS Section 202.3.7 states that USAID operating units are responsible for managing the
resources made available to them in a cost-effective manner.

USAID’s contractor for the activity entitled “Customs and Business Environment that
Promotes Trade and Investment” was assigned a budget of $150,000 on July 2006 to
purchase supplies and equipment for the GOES Superintendency of Competition.
According to the Task Order, the Superintendency should be equipped within the first six
months of the activity. However, the scope of the proposed equipment procurement was
scaled back drastically so that at least $119,355 of this amount can be reprogrammed
for other uses. As of December 2006, there were no plans for using the $119,355. The
remaining $30,645 was used to purchase the following software and equipment for the
Superintendency of Competition:

 Description                                                          Amount

 Video conferencing equipment (42” plasma monitor, high               $26,667
 definition camera, and ancillary equipment and software)




                                                                                      28
 Forecasting and econometric analysis software                            3,090

 Website development software                                               888

 Total                                                                  $30,645

According to USAID/El Salvador staff and USAID’s contractor, the purpose of the video
conferencing equipment was to enable the Superintendency of Competition to
communicate with its counterpart offices in other countries in Central America and
maintain contact with a consultant in Washington, DC. No estimate of how often video
conferences would be held was available.

In our opinion, this rationale does not present a strong factual case for concluding that
the cost of the video conferencing equipment is justified. Under certain conditions – i.e.,
where parties need to communicate intensively with one another, all have compatible
equipment, and have the requisite support staff to resolve technical problems –
specialized video conferencing equipment can provide a higher level of functionality than
the less expensive alternatives. However, it is feasible to sustain rather intensive
communications by telephone, e-mail, fax, and through free internet-based video
messaging services. It is very likely that these less expensive means of communication
can satisfy the Superintendency of Competition’s needs, while conserving scarce
resources for other needs.

The original $150,000 was budgeted for equipment for the Superintendency because
USAID/El Salvador and its contractor were relying on preliminary estimates of needs.
The video conferencing equipment was purchased (although not yet delivered to the
Superintendency) because USAID/El Salvador staff and USAID/El Salvador’s contractor
in large part deferred to the Superintendency’s judgment in deciding how the budget for
equipment purchases should be used.

As a result, $146,022 can be reprogrammed for higher priority uses. (This amount may
be reduced slightly when freight charges for returning the video conferencing equipment
are taken into account.)

   Recommendation No. 12: We recommend that USAID/El Salvador reprogram for
   higher priority uses the $119,355 budgeted for equipment for the
   Superintendency of Competition but not needed as well as the $26,667 that was
   spent for video conferencing equipment that is not justified.

Evaluation of Management Comments – In response to our draft report, USAID/El
Salvador stated that the $26,667 in video conferencing equipment purchased by the
contractor for the Superintendency of Competition has been returned. With regard to the
$119,355, the Mission stated that no funds need to be reprogrammed because it
suggested that the funds will likely be used for additional equipment needs in FY 2008
and FY 2009.

Based on the Mission’s response and additional information provided by USAID/El
Salvador, we consider that the Mission has agreed to reprogram $26,667 for higher
priority uses since the video conferencing equipment will not be turned over to the
Superintendency and the contractor has agreed not to bill USAID for the equipment. We
consider that the Mission did not agree to reprogram the remaining $119,355 for higher



                                                                                        29
priority uses since the funds will likely be used for the same purpose, only at a later
date.19 Accordingly, final action has been taken on this recommendation.




19
  The Mission believed that there was a misunderstanding regarding the $119,355. The Mission
thought that these funds would be obligated in the future. We believe that the funds were already
obligated since the scope of work indicated that all of the funds would be used within the first six
months of the activity. However, because the task order is incrementally funded and there is no
budget for the amounts obligated to date, this cannot be readily verified by reviewing the task
order itself.




                                                                                                 30
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this audit in accordance with
generally accepted government auditing standards. The purpose of the audit was to
determine whether activities under USAID/El Salvador’s economic growth activities
achieved planned results and whether reporting provided stakeholders with complete
and accurate information on the progress of the activities and the results achieved.

In planning and performing the audit, we assessed the Mission’s controls related to its
economic growth activities.       The management controls identified included the
Performance Monitoring Plan (PMP), the Mission’s Annual Report, the Mission’s data
quality assessments, the Mission’s annual self-assessment of management controls as
required by the Federal Managers Financial Integrity Act, reports on the Cognizant
Technical Officers’ (CTO) field visits, program progress reports, and day-to-day
interaction between Mission staff and program implementers.

With the exception of the watershed management activities, the audit covered all other
activities under the Mission’s second strategic objective, Economic Freedom: Open,
Diversified Expanding Economies. The audit was conducted in El Salvador from
October 4, 2006 to December 13, 2006. Our audit focused on the period from the start
of the new economic growth strategy, July 1, 2005, through September 30, 2006.
During that time, the Mission obligated $28.2 million and expended $15.6 million for the
activities that were audited.

Methodology
To answer the audit objectives, we met with CTOs and implementing partners. We
reviewed relevant documentation produced by USAID/El Salvador such as award
documents including amendments, Mission correspondence, internally used worksheets
for measuring results, the Mission Performance Plan, Annual Reports, and field visit
reports. We reviewed contractor prepared documentation such as annual work plans
and quarterly progress reports also.

In order to test whether targets were met, we reviewed all 19 activity-level indicators that
were reported in the Mission’s Performance Monitoring Plan as well as indicators
reported in the Mission Performance Plan, the Congressional Budget Justification, and
implementer awards and work plans.

In order to determine whether accurate information was reported, we compared results
obtained from tests and interviews with the results presented in the Mission Performance
Plan, the Congressional Budget Justification, and the Annual Report. We specifically
verified reported accomplishments by doing the following:

•   For the agricultural diversification, export promotion, and artisan development
    activities, we interviewed mission and/or implementing partner personnel and
    reviewed documentation to determine how results are collected for increased sales




                                                                                         31
                                                                                 APPENDIX I


    and new jobs. We then obtained information on actual and projected sales and
    compared the data to actual and expected program costs to obtain an idea of the
    effectiveness of the program. Limited testing to determine the accuracy of results
    reported consisted of the following:

       o   For the export promotion activity, we judgmentally selected 10 of 379 firms for
           review based on a variety of factors including the amount of assistance
           received, the amount of sales that was produced, and the type of business.

       o   For the agricultural diversification activity, we randomly selected 10 active
           program clients out of 507 total clients. We also traced the reported
           performance figures for increased sales and jobs created to the records kept
           by the USAID CTO and to the implementing partner’s supporting records.

       o   For the artisan development activity, we traced the total sales reported for FY
           2005 and FY 2006 to monthly sales reports. We then randomly chose
           reported sales for one month in FY 2006 to supporting documentation (i.e.,
           invoices, artisan certifications). Finally, we recalculated jobs reported for FY
           2005 and FY 2006 based on the formula provided by USAID’s partner.

•   For the financial services activity, we reviewed the process used by USAID in
    selecting the participating financial institutions. For each indicator, we then reviewed
    documentation provided from most of the participating financial institutions that
    support the consolidated results reported by the implementer. These indicators
    include the number of new small and medium borrowers, the new loans to small and
    medium enterprises, the total value of active new loans, and the number of people
    trained under the financial services program. We performed a walk-through of the
    consolidation process performed by the implementer to reach a conclusion on the
    accuracy of the reported data.

•   For the small infrastructure activities, we analyzed the activity selection procedure
    and ensured that they were all properly authorized by USAID. We then reviewed the
    list of all the infrastructure activities, past and present, and judgmentally selected 3 of
    10 projects to review. We visited a site where 500 meters of road was built and
    another site where 1,358 meters of an irrigation system was rehabilitated. We
    performed a desk review of documentation for a third infrastructure activity. We
    confirmed that each of the three activities were properly documented in the files and
    that the reported results matched actual results.

To determine the significance of our findings, we judged that the Mission met planned
results if 80 percent of the performance targets were met. In judging the significance of
variances found during the audit between reported accomplishments and supporting
documentation, we considered variances of 5 percent or more to be significant and
reportable.




                                                                                            32
                                                                               APPENDIX II



MANAGEMENT COMMENTS
To:        Regional Inspector General/San Salvador, Timothy E. Cox

From:      USAID/El Salvador Director, Deborah Kennedy-Iraheta

Subject:   Audit of USAID/El Salvador’s Economic Growth Program (Report No. 1-519-
           07-00x-P)

Date:      February 16, 2007

This memorandum responds to your subject draft report and transmits our comments on
the thirteen recommendations contained therein. I appreciate the opportunity to
comment on the recommendations. As requested, we have specified our agreement or
disagreement with each recommendation as indicated below. In case of agreement, we
have specified a target date for the identified actions.

Recommendation No. 1: “We recommend that USAID/El Salvador revise its
performance targets for the economic growth program as required by ADS 203.3.4.5.”

We concur with this recommendation. All performance targets stated in the Economic
Growth Performance Management Plan (PMP) for fiscal years 2007, 2008 and 2009 will
be revised as required by ADS 203.3.4.5 and adjusted if needed. Target date: Sept. 30,
2007.

Recommendation No. 2: “We recommend that USAID/El Salvador review its economic
growth portfolio, using readily available information on economic costs and benefits, and
take appropriate action to reduce costs or increase cost efficiency for those activities that
it concludes are not cost effective.”

We concur with this recommendation. For each activity, we plan to develop a matrix
with calculations of expected, direct financial costs to be incurred by USAID and partners
and contrast these costs to the expected, direct financial benefits during and after the
activity period. We will not carry out an analysis using economic values such as those
derived from opportunity cost, shadow price calculations, or other complex estimations
of indirect costs and benefits. For those activities not deemed cost effective, this
analysis will be used to take appropriate action by USAID managers. Target date:
August 30, 2007.

Recommendation No. 3: “We recommend that USAID/El Salvador, working through its
contractor, develop and make available to Government of El Salvador tax authorities
information on tax incidence and compliance rates by taxpayer income level.”

Recommendation No. 4: “We recommend that USAID/El Salvador obtain evidence that
the Government of El Salvador has implemented a program to reduce tax evasion
through transfer pricing schemes.”

Recommendation No. 5: “We recommend that USAID/El Salvador build on its tax
administration assistance by developing and implementing a plan to engage the




                                                                                          33
                                                                               APPENDIX II


Government of El Salvador at the highest level in a dialogue on its tax structure, possibly
including the need for a land or property tax, and drawing on the analytical capabilities of
its current contractor or other sources of expertise as necessary.”

As described in the audit report, USAID/El Salvador’s assistance in tax policy and
administration activity has achieved planned results, helping the Government to increase
tax collections from 11 percent in 2001 to an estimated 13.6 percent in 2006 (including
an increase of $344 million in CY 2006 alone). USAID/El Salvador is committed to
ensuring our programs have maximum impact, and we therefore welcome the
observations contained in the audit report as to opportunities to enhance the impact of
the USAID activity. In this year’s work plan for this activity, in addition to ongoing efforts
to establish a computerized management information system that will improve tax
compliance oversight and tax policy formulation, we will ensure our contractor includes
the following specific actions:

   1. Working with the GOES data base and Ministry of Finance personnel, carry out
      an analysis of tax incidence and compliance rates by income level; and

   2. As part of the continued training and support for the Tax Investigation Unit (the
      key Salvadoran unit for fraud investigation), provide specialized training on
      transfer pricing and work with the unit to develop a set of written investigation
      guidelines for transfer pricing.

We have also instructed our contactor to initiate a comprehensive study of the El
Salvador tax system, including opportunities for reform, and plan to share and discuss
this report with high-level Government officials. These actions directly respond to
concerns reflected in the audit report and are within USAID’s manageable interest.

Since recommendations 3, 4, and 5 go beyond the scope of the audit report’s objective
(i.e., of determining whether activities have achieved planned results) and USAID’s
manageable interest, we recommend the suggestions on further improving activity
impact be addressed to USAID/El Salvador through a Management Letter. As RIG staff
can appreciate, the comprehensive study of El Salvador’s tax system to be undertaken
may well point to additional measures that USAID’s tax policy and administration activity
should address, including policy and legal reforms. The tenor and level of our tax policy
dialogue with Salvadoran officials was heightened as a result of the October 2006
speech by the U.S. Ambassador calling for Salvadorans to pay their taxes; the urgency
of executive branch action to increase revenues has only gotten more acute since then.
We are confident that continued USAID technical support will lead to additional
increases in revenues. Once the findings of the comprehensive tax study are available,
USAID and the Government representatives will be able to agree upon an activity work
plan and new targets which maximize impact while recognizing the difficult political
environment and complex tax regime (including constitutional restrictions on double
taxation) of El Salvador.

Recommendation No. 6: “We recommend that USAID/El Salvador obtain from the
implementing partner of the export promotion activity an adequate operating manual for
approval by the Contracting Office as soon as possible.”

We concur with this recommendation. Indeed, USAID has made several requests to
Nathan Associates regarding the submission of an operating manual that complies with




                                                                                           34
                                                                              APPENDIX II


USAID rules and regulations. The latest version submitted by Nathan is being reviewed
by the USAID Contracts Office. Target date: April 30, 2007.

Recommendation No. 7: “We recommend that USAID/El Salvador require Aid to
Artisans to periodically validate the formulas used to estimate the number of new jobs
created or obtain information on the actual number of new jobs created directly from
assisted firms.”

We concur with this recommendation. Aid to Artisans will conduct a survey among a
broad sample of firms assisted by the program to collect direct information of new jobs
created by these firms. The results will then be compared to the formula estimates to
verify deviations and make appropriate corrections. Target date: June 30, 2007.

Recommendation No. 8: “We recommend that USAID/El Salvador 1) clearly disclose
the use of estimates or perhaps provide a range of values, when appropriate, rather than
reporting estimates as precise figures and 2) present sufficient contextual information to
facilitate understanding of its reporting on the economic growth program.”

We concur with this recommendation. However, it should be noted that new global
reporting template of the USAID Operational Plan (OP) does limit the ability of USAID
missions to report on indicators and denote estimates or use a range of values when
reporting. Furthermore, the new reporting format of the OP places strict character limits
on the text in the report. We have implemented this recommendation by disclosing the
use of estimates and to the extent possible within reporting guidelines, we are providing
contextual information in reports for external use. We request closure on issuance of the
final audit report.

Recommendation No. 9: “We recommend that USAID/El Salvador require Cognizant
Technical Officers to periodically sample and review their implementing partners’ data
for completeness, accuracy, and consistency.”

We concur with this recommendation. We are drafting and will issue a Mission Order on
site visits to require Cognizant Technical Officers to periodically select and review a sub-
set of indicator data from implementing partners for completeness, accuracy and
consistency. A standard worksheet will be developed for CTOs to record results of this
exercise. Target date: June 30, 2007.

Recommendation No. 10: “We recommend that USAID/El Salvador require a written
site visit report to document the purpose and the results of each visit.”

We concur with this recommendation. We are drafting and will issue a Mission Order on
site visits to require CTOs to record site visits to projects documenting the purpose and
results. Target date: June 30, 2007.

Recommendation 11: “We recommend that USAID/El Salvador reprogram $11 million
to program areas where the funds can be used within the current fiscal year.”

The Mission concurs with the forward funding analysis and audit finding, and had prior to
the audit already initiated actions to both accelerate expenditures and reallocate
funding. However, in the case of several activities, U.S. foreign policy interests may best
be served by exercising the authority granted to Mission Directors to approve an




                                                                                         35
                                                                         APPENDIX II


exception to the forward funding guidance, as permitted in ADS 602.3.5. Bilateral
foreign assistance will decline precipitously in FYs 07 and 08, and the Mission will be
focusing these resources on a reduced number of “program elements” identified in the
new foreign assistance framework. As the Mission downsizes and refocuses our
bilateral assistance program on fewer program elements, we want to ensure ongoing
activities where future funding is not available can be brought to an adequate ending
point that protects and maximizes the impact of past USG investments. Once we
receive a final OYB for FY 07, the Mission will be able to complete our analysis of the
Economic Growth portfolio and make management decisions concerning
reprogramming, invoking an exception to forward funding guidance, or a combination of
both in order to satisfy and close the recommendation. Target date: September 30,
2007.

Recommendation No. 12: “We recommend that USAID/El Salvador reprogram for
higher priority uses the $119,355 budgeted for equipment for the Superintendency of
Competition but not needed as well as the $26,667 that was spent for video
conferencing equipment that is not justified.”

We partially concur with this recommendation.           First, we concur with the
recommendation to return the video conference equipment purchased by the contractor
for the Superintendent of Competition. This equipment has already been returned by the
contractor.

However, we believe that there is a misunderstanding regarding the remaining $119,
355. During this three year activity, $150,000 was originally programmed for equipment
purchases for the Superintendency of Competition. With the return of the video
conference equipment, no other equipment will be needed during FY 2007. That is, the
recommendation asserts that the $119,355 is no longer needed, but rather it should say
that these funds are not needed for equipment purchases this year. There will likely be
additional equipment needs in FY 2008 and FY 2009, and FY 2007 and FY 2008 funds
not yet received by the Mission would be used to meet these needs. Since no additional
funds have been added into the agreement for equipment purchases, there are no funds
to reprogram.




                                                                                    36
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
            Tel: (202) 712-1150
           Fax: (202) 216-3047
            www.usaid.gov/oig
